                                    CLOSEOUT FOR M-91040020




    when, as reviewers of one or both of the ad hoc reviewer's proposals, they used some of his ideas. In
    addition, the complainant alleged that subject #1 violated the confidentidly of peer review when he
    told the ad hoc reviewer that he had been an NSF panelist and had reviewed one of his proposals.

            The ad hoc reviewer provided OIG with copies of the two proposals that contained the ideas
    allegedly plagiarized by the subjects. The NSF computerized reviewer system showed that none of the
    subjects was a reviewer or panelist for either of the ad hoc reviewer's proposals. OIG concluded that
    there was no substance to the allegation that the subjects had violated the confidentiality of peer review
    by misappropriating ideas fiom the ad hoc reviewer's NSF proposals.

            We also concluded that the subjects, who had been independently involved in research that
    overlapped with the ad hoc reviewer's field of study, could have developed ideas that were similar to
    those of the ad hoc reviewer, especially considering the six years that had elapsed between the
    complainant's and the subjects' submissions.
1
            The second allegation involved a possible violation of the confidentiality of peer review that
    occurred when subject #1 allegedly told the ad hoc reviewer that, as an NSF panelist, he had reviewed
1   one of his proposals According to the ad hoc reviewer, subject #1 did not reveal the specific proposal
    he reviewed and he did not disclose any panel information related to the proposal's review. OIG
I
    concluded that the information allegedly shared by subject #1 with the ad hoc reviewer did not violate
    the coddentiality of peer review Hence, there was no substance to this allegation
!

                                                   Page 1 of 2                                       M9 1-20
                              CLOSEOUT FOR M-91040020

      This inquiry should be closed and no fUrther action will be taken.

cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                              Page 2 of 2
